WAIVER

SUPREME COURT OF THE UNITED STATES

No. 21-88

Christina Paylan Darrell Dirks, et al.
(Petitioner) Wi (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© _ Iam filing this waiver on behalf of all respondents.
© I only represent some respondents. | am filing this waiver on behalf of the following respondent(s):

Brian Bishop, Mark Detrio, Russell Marcotrigiano, Kenneth Morman

Please check the appropriate box:

© Iam a member of the Bar of the Supreme Court of the United States, (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).
SZ

Signature: < a,
a

a

a
Date: omaguSt 9, 2021

(Type or print) Name Andrew lan Dayes

 

© mr. O Ms. O Mrs. O Miss
Firm Dayes Law Firm, PLLC
Address 727 2nd Street South - a
City & State Safety Harbor, Florida Zip 34695
Phone 727-240-1332 Email gid@dayeslaw.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Christina Paylan
ce:
